Supreme Court, U.S.
FILED

No.

IVIM5

DEC 24 2019
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

James Beggs, Joyce Beggs, et ux
Petitioners
Vs.
Beverly Story et al,
Respondents
On Petition for Writ of Certiorari to The
Virginia Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Pro’se James Beggs
Pro’se Joyce Beggs
312 South Willard Ave
Hampton, Virginia 23663
757 265 7784

Questions Presented
Was a Veteran deprived of continued Mental
Health Care from a War Zone under President
Obama Executive Order 13625 by Conspiracy
Under Title 18, U.S.C., Section 241 & 242, to
void his Emergency Custody, Guardianship and
Adoption to the Petitioners.
Whether Officers of the Court void Petitioners
Military Power of Attorney, and Veteran Military
Service Medical Records from a War Zone,
violate the National Defense Authorization Act of
intelligence Matters.
Whether Officers of the Court used Fraud on
the Court to Misused a Child Estate by Voiding
Petitioners: Custody and Guardianship.
Whether Respondents from three different
Court Systems Conspired against A Black
Republican and Her Family under Title 18,
U.S.C., Sect 241.
Did Plots of Parental Alienation and Fraud on
the Courts used to undermine a Sick Veteran in
a Plea Deal in Bad Faith, can be reviewed under
Federal Rule of Evidence Rule 60.
Do Black Republicans, Black Professionals,
Native Americans suffering Plots under Title 18,
U.S.C., Section 241, & 242; need Protections
under the Domestic Terrorism Act to protect “We
the People”.
Whether violations of the “prejudice prong of
Strickland under the Six Amendment caused
Cruel and Unusual Treatment to all Petitioners.

11

LIST OF COURTS AWAITS
U. S. SUPREME COURT DISCRETION
On Petition for A Writ of Certiorari to The
Virginia Beach Circuit Court Commonwealth Vs.
Cornelius Courtney Beggs” No: CR17-001285 OCA File
Number VAB 16-05667 for Respondent Attorney Afshin
Farashai. Chain Conspiracy from Virginia Beach with
Respondents under 18 U.S. Code 241 and section 242

On Petition for Writ of Certiorari to The U. S.
District Court of Virginia Newport News, Case No:
4:17-cv-00110-AWA-DEM. James Beggs and Joyce Beggs
Vs. Cunningham et al. Appealed to the U. S. Fourth District
Court of Appeal No: 19-1859. Status Pending Respondent
Cunningham Lindsey Chain Conspiracy from Virginia
Beach with Respondents under 18 U.S. Code 241 and
section 242

LIST OF PARTIES
All Parties do not appear in the caption
Petitioners
1. “Said Child” Lauryn Beggs. An Infant Child with
Petitioners having Joint Legal Custody and Visitation.

2. “Said Veteran” Cornelius Bobbitt-Beggs. With
Petitioners having Federal Military Power of Attorney and
Emergency Power of Attorney.

Respondents
1. Attorney Paulette D. Franklin-Jenkins Court
Appointed- USSC Rule 35 (3) successor from the same
Law Firm Named Attorney Lori A. Butts.

2. Attorney Cynthia King Court Appointed- Under
USCR RulelO, USSC Rule 35 Successor Respondent
Attorney Nicole A. Belote

3. Attorney Asha S. Pandya Court-Appointed
Non-Interested Party - Court Appointed under USSC 10,
and USSC Rules 35 (3) no Success.

Ill

Other Party Awaits
U. S. Supreme Court Discretion
Respondent Attorney Afshin Farashai, Court
Appointed for “Said Veteran” in Commonwealth
Vs. Cornelius Courtney Beggs” No: CR17-001285
OCA File Number VAB 16-05667. Virginia
Beach Circuit Court Filed May 10, 2017, entered
Plea Deal in Bad Faith November 13, 20120
during Veteran Month. Needing review under Rule
60(b) at this Court Discretion with Veteran Returned to
the Hampton Veteran Hospital.

Respondent Cunningham Lindsey U. S. Inc.
et al of Virginia Beach, in the Newport News
Federal Court in Newport News, Case No: 4:17cv-00110 under USSC Rule 11 imperative to
public importance under U. S. C. 2101 (E) needing
review under Rule 60(b) at this Court Discretion. Case
Static Pending

Related Cases Involved
1.
Commonwealth Vs. Cornelius Courtney
Beggs” No: CR17-001285 OCA File Number VAB
16-05667. Virginia Beach Circuit Court Filed
May 10, 2017, entered Plea Deal in Bad Faith
November 13, 20120 during Veteran Month.
2.
Lauryn Beggs, No: JJ216264-01-00 & 02GO No: JJ216274-04-00 & 05-00, No: CJ17-63
Minor Case, Virginia Beach Circuit Juvenile and
Domestic Court. Voiding Petitioners Emergency
Custody July 20, 2016, Order entered March 23,

J

IV

2017. Petitioners Notice of Appeal was wrongly
filed Late “Clerical Error” without 10 days
weekend Filing.
A Timely Appealed to Virginia Court of Appeal
No: 1224-17-1, entered 8/03/2017 denied 3/28/2018,
rehearing denied 6/26/2008 appealed to VSC No:
180512, Title James and Joyce Beggs Vs Beverly
Story in Virginia Supreme Court Denied January
1, 2018.
3. James Beggs & Joyce Beggs Vs. Beverly Story
Virginia Supreme Court 180637 “SCR Case Type
Mandamus” entered 5/11/2018 denied 2/14/2019
4. James & Joyce Beggs Vs. Beverly Story in No:
0054-18-1 Virginia Court of Appeal Judgment.
Denied 1/10/2018 for Jurisdiction concerns using
their Own Discretion send to Virginia Supreme
Court. Style Mandamus Paulette D. FranklinJenkins No: 181525 James & Joyce Beggs Vs.
Beverly Story Entered 7/19/2018 Denied 2/14/19.
5. James Beggs, Joyce Beggs Vs. Cunningham et
al. From Newport News Federal Court in Norfolk
No: 4:17-cv-00110 Appealed to the Fourth District
Court Case No: 19-1859 Case Static undecided
pending.
6. Joyce Beggs, Infant Cornelius Bobbitt-Beggs et
al Vs. Respondents No: 06-931, Writ of Habeas
Corpus-Case‘Entered-January=8th, 2007 Denied
February 2007. Denied with Retaliation Against
Petitioners

V

TABLE OF CONTENTS
Question Presented.........
Page i
List of Courts on Petition
Page ii
List of Parties....................
...Page ii
Other Party Awaits U. S. Supreme Court
Discretion......................................
..... Page iii
Related Cases Involved..............
Page iii, iv,
Table of Contents......................... ..... Page v
Table of Appendix........................ Page vi, vii
Table of Authorities Cited Case ...... Page-vii
Opinions Below............................ ............. Page 1
Jurisdiction..................................
Page 2
Constitutional and Statutory Provisions...Page 3
Statement of Case Writ of Certiorari.......Page 4
Joyce Beggs Misunderstood
Research
Page 11
Cases Complex History...,
18
Reason for Granting Writ
Page 27
Conspiracy Plots in the Newport News Federal
Court in Norfolk Virginia
Page 36
Petitioners Emergency Relief Needed...Page 38
Conclusion
.Page 41
Petitioners Appendix
.Page 42

k.

VI

Tables of Content for Appendix
Appendix-A
Order From the Virginia
Supreme Court, Denying Petitioners Appeal
No: 190102 November 21, 2019 “No Reply from
Respondent Beverly Story
Page A-l
Appendix-B Virginia Supreme Court Granting
Petitioners Motion to file Hard Copy, Denying
Petitioners Motion for Injunction For the Help of
the Virginia Attorney General Case No: 190102
October 31, 2019, with No Reply from
Respondent Beverly Story
Page A-2
Appendix-C Virginia Supreme Court Denying
Appellants Appeal No: 190102 August 27, 2019
with No Reply from Appellee Beverly
Page A-3
Story
Appendix-D Virginia Supreme Court Granting
Appellants Leave to Amended their Petition for
Appeal No: 190102 April 2, 2019 with No Reply
from Appellee Beverly Story as stated in
Page A-4
Order
Appendix-E Virginia Court of Appeals Court
Order 0054-18-1, First Realize to Jurisdictional
Violation
.....Page A-5
Appendix-F
AFFIDAVIT BEFORE NOTARY
PUBLIC For -A Agreement of Adoption Filed by
Petitioners December 24 2016
Page A-6

Vll

Appendix-G Fraudulent Motions by Respondent
Attorney Paulette D. Franklin- Jenkins “a Former
Employee from Virginia Beach City Attorney Office” with
a Conflict of Interest with City Attorney Christiana R.
Dougherty-Cunningham” Listed her Client Beverly

Story as Plaintiff.

Page A-7

Appendix-H November 17, 2017, Motion for a
Restraining Order Against Attorney Paulette D.
Fr anklin-Je nkins
Page A-8
Appendix-I-Petitioners Jurisdiction Statement.
................ ..........................................Page A-9
Appendix-J Appellants Military Power of
Attorney over “Said Veteran”..........Page A-15
Appendix-K
Appellants
Legally
Signed
Appointment of Guardian............... Page A-21
Appendix-L Attorney Asha Pandya Guardian
Ad Litem Tried to tell Court of Veteran
disability Not Signed by Judge.......Page A-25
Appendix-0 Petitioners Adoption Agreement
...................................................... Page A-26, A-27

k

vm
Table of Authorities Cited Cases
Bulloch v. the United States, 763 F.2d 1115, 1121
(10th Cir. 1985)
Page 10, 18, 26
Brown V. Vasquez 952 F .2n 1164, 1166 (9th Cir.
Page 16, 34, 37
1992)
Bucy v. Nevada Construction Co. (C.C.A.9th,
Page 6, 18
1942) 125 F.(2d) 213
Crute v. Crute Va., Cir.190, 192 Va. Cir.
Page 17
Ct.1988
Dovel v. Bertram, 184 Va. 19, 22, 34 S.E.2d 369,
Page 16, 18
370 (1945)
Fiske v. Buder (C.C.A.8th, 1942) 125 F.(2d)
Page 1,9
841
Harris V. Nelos, 394 US 286, 290-91
Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
Page 18
322 U.S. 238, 245, 250 (1944)
Hustler Magazine, Inc. v. Falwell, 485 U.S. 46
Page 26
(1988)
7 Moore's Federal Practice, 2d ed., p. 512, 60.23”
.............................................................. Page 26
Keel v. Keel, 225 Va. 606,611,303 S.E.2d
Page 26
917,921(1983)
Page 26
Kenner v. C.I.R., 387 F.3d 689 (1968)
Loving v. Virginia, 388 U.S. 1 (1967)
O’Sullivan v. Boerckel, 526 U.S. 838, 845
(1999).............. ..................................... Page 16
Jefferson v. Gallagher, 56 Okla. 405, 150 P.
Page 16
1071
Scheuer v. Rhodes, 416 U.S. 232, 94 S. Ct. 1683,
Page 20
1687 (1974)
Visikides V, Derr. 3 Va App 69 (1986) ...Page 25
William vs. Williams, 24, Va. App.778 783,435,
Page 23
S.E. 2nd 651, 654, 413, (1997)

1
Opinions Below
1. The Opinion of the Highest State Court to
review the last of many Complex Cases is Record
No. 190102 from the Virginia Supreme Court Filed
January 22, 2019, Denied November 26, 2019.
Case 190102 is From the Virginia Beach Circuit
Court File CL16004672-00 File October 11, 2016
A Timely Notice of Appeal filed December 1,
2019, to the Virginia Supreme Court on the Last
Complex No: 190102 all needing review arising out
of the same transactions at this Court Discretion.
2. The Virginia Beach Circuit Court No: CR17001285, OCA File No: VAB 16-05667, in
Commonwealth v. Cornelius Bobbitt Beggs, Filed
May 10, 2017, Ending in a Bad Faith Plea Deal,
November 13, 2019, during Veteran Month.
Denied his Trial Dated of August 20, 2019 and A
Timely Trial Pending for over 3 Years. Neglected
of Medial Attention. Suffering Medically and
Mentally from PTDS, Denial of his Federal
Constitutional Rights he gave his good health to
protect. Voided of Presidential Executive Orders
for Veterans Receiving Mental Health Care &
Federal Jurisdiction. Used to Deny Petitioners of a
Fair Appeal Process in Record No. 190102. Voided
Petitioners Military Power of Attorney or any
Knowledge of Plea Deal.
A Timely Notice of Appeal was sent to the
Virginia Beach Circuit Court mailed December 1,
2019, needing a Writ for Certiorari showing
inference in citing Fiske v. Buder (C.C.A.8th,
1942) 125 F.(2d) 841.

2
3. James Beggs, Joyce Beggs Vs. Cunningham
Lindsey et al from Virginia Beach with Plots
under Title 18, U.S.C., Section 241, 242; to cause
Petitioners Financial Suffering in Court Case No
4:17-cv-00110 needing review under Supreme
Court Rule 11 at this Court Discretion. Case
Status: Pending Fraud on the Courts and Civil
Terrorism is Imperative to public importance
under U. S. C. 2101 (E) needing review under
Rule 60(b) at this Court Discretion, pending in
the 4th Circuit Court Case No: 19-1859.
A Timely Notice of Appeal was sent to the
Newport New Federal Court Case No 4:17-cv00110 appealed to the 4th Circuit Court Case No:
19-1859 Static Pending
Jurisdiction
Exhaustion of all State Court Remedies 28
U.S.C.§ 1254 (1) (2), Review Appeal from the
Virginia Supreme Court and the Virginia Beach
Circuit Court all under the same Transactions
under 18 U.S.C. section 241 & 242 Conspiracy
voiding Acts of Congress, President Obama
Executive Order for Veterans together with
Exhaustion of all State Court Remedies 28
U.S.C. 1257 Newport News Circuit Court of
Norfolk Virginia Jurisdictions Appealed to the
Fourth District Court involving Respondent
Cunningham Lindsey U.S. Inc. Exhaustion of all
State Court Section, 2255(a)(b) Title 28 §2283.
Stay of State court proceedings, 2102, 2104.
Together under 28 U.S. Code 2101 (E) See
Petitioners Appendix I - Jurisdiction Statement

3
Constitutional and Statutory Provisions
Involved
Article III section 2 of the United States
Constitution
Americans with Disability Act: for Petitioner
Joyce Beggs Dyslexia.
Civil Right Act
Executive Order of President Obama 13625 2012
& Reinstated by President Trump for 2020
Federal Rule of Evidence Rule 60.(l)(2)(3)(d)1.3.
Mental Health Care for Veterans.
Senator John McCain Veterans Community Care
and Access Act.
Senator Mark Warner, Veteran Caregiver Act of
Congress Signed by President Trump President
Trump Proclamation for Veteran Month 20172020.
President Bush Patriot Act
United States Constitution-Fifth Amendment,
Sixth Amendment,
Eighth
Amendment,
Ninth
Amendment,
Fourteen Amendments
U. S. C. 10 1044b Military Powers of Attorney.
Uniform Transfers to Minors Act
Uniform Gifts to Minors Act
U. S. C. 10 1044b Military Powers of Attorney.
U.S.C. 18 § 241.Conspiracy & Section 242
USC 18 371
U. S. C. 2101 (E)
U.S.C. 28 § 2254(b)(1)(B)
U.S.C.28 § 2254 - State custody; remedies in
Federal Courts,
U.S.C. 42 1983.

4
STATEMENT OF THE CASE
Come now Veteran James Beggs and his wife
Joyce Beggs Owner of Angel Field Farms,
preserving the Food History and Farming
Secrets of the Contraband Slaves given to them
by Native Americans overlooking Fort Monroe.
Where Petitioner Joyce Beggs Great Grandfather
along with other Contraband Slaves received
their Freedom from Major General Benjamin
Butler during the Civil War are Pro Se’ Litigants
in this Honorable Court.
Said Petitioners James Beggs and his wife
Joyce Beggs are the Appointed Guardians of
Lauryn Beggs Grandchild by her Natural
Father August 1, 2016 who gave Emergency
Custody to them July 20, 2016 by Said Veteran
deprived of Federal Jurisdiction of an FBI
investigation by Officers of the Court in these
complex cases. Using Chain Conspiracy plots
under Title 18, U.S.C., Section 241 & 242 along
with on-going concealment his Military Static.
Creating a Sham Defense-being. As true facts
shows him as a Missing Patient under the care
of the Hampton Veteran Administration
Hospital; suffering from Mental and Physical
Injuries from Afghanistan by Fraud on the
Courts causing a Miscarried of Justice in
complex cases’ by all Respondents voiding
Federal Constitutional Rights of all Petitioners,
causing the Virginia Supreme Court to Denied
Petitioners Guardianship Documents in Case
No: 190102, Violation under U.S.C. 42 1983.

5
As Respondent Cunningham and Lindsey
allegedly used Good Standing Insurance
Companies, and Conflict of Interest, searching
Petitioners Church Members for a Federal
Judges in the Newport News Federal Court
because Petitioner Joyce Beggs is a Black
Republican who received help from the Late
Senator Jesse Helms. Forcing Petitioners to Ask
Hampton Police Department at Fort Monroe to
watch over their Church Members and Family.
Needing Review under Article III section 2 of the
United States Constitution.
Said Case No:
190102 were the last of said Complex Case No:
181048, Case No: 180512, Case No: 181525, Case
No: 180959, Case No: 181224 all needing review
arising out of the same transactions.
The judicial power shall extend to all cases, in law and
equity, arising under this Constitution, the laws of the
United States, and treaties made, or which shall be made,
under their authority;—to all cases affecting ambassadors,
other public ministers and consuls;-to all cases of
admiralty and maritime jurisdiction,--to controversies to
which the United States shall be a party;—to controversies
between two or more states;-between a state and citizens
of another state;-between citizens of different states;between citizens of the same state claiming lands under
grants of different states, and between a state, or the
citizens thereof, and foreign states, citizens or subjects.
In all cases affecting ambassadors, other public
ministers and consuls, and those in which a state shall be
party, the Supreme Court shall have original jurisdiction.
In all the other cases before mentioned, the Supreme Court
shall have appellate jurisdiction, both as to law and fact,
with such exceptions, and under such regulations as the
Congress shall make.

J

6
Voiding Petitioners Federal Rights, their
Military Power of Attorney of their son to be
present at all Motions Hearing who is a United
States Veteran Name Cornelius Bobbitt Beggs"
hereas “Side Veteran” along with Federal
President
Obama
under
Jurisdictions
Presidential Executive Order 2016 to Continue
Mental Heath Care Treatment with the need
medications and Act of Congress Supporting.
Military Families.
With Conspiracy to Block Due Process of All
Petitioners, with a Veteran suffering from War
Injuries deprived of effectiveness of Counsel,
needing continued Medical Treatment not
reported or reveled to the Virginia Beach Court
System or Judges, nor Virginia Beach
Correctional Facilities, citing the inferential
facts in Bucy v. Nevada Construction Co.
(C.C.A.9th, 1942) 125 F.(2d) 213. 2 While taken
Advantage of Petitioner Joyce Beggs who suffers
from Dyslexia under the American with
Disability Act who has studied the law to the
best of her ability, while suffering plots of
Estoppel Actions and Terrorism with Fraud on
the Courts of the Virginia Beach Court Systems,
up to the Virginia Supreme Court and
Cunningham Lindsey U. S. Inc. in Newport
News Federal Court Systems. With the same
Conspiracy used in the Hampton Circuit Court
NO: 06-931 allegedly creating the misuses of
State Farm Insurance Companies of plots
against Petitioner Joyce Beggs and her children
in Hampton Circuit Court USSC NO: 06-931.

7
because she is a Black Republican who received
help from the Late Senator Jesse Helms. Ending
with the Late Virginia Del. Tom Gear crossing
over to the Petitioner Joyce Beggs Republican
Party in Virginia to help his Sister Attorney
Kathy Gear-Owens: who was an Attorney in
Case
No:
06-931.
Just because of a
Misunderstanding of Joyce Beggs Research on
Contraband Slaves in Phoebus Section of
Hampton Virginia.
As said Town is nicknamed
“A Little Chicago”.
Whereas Petitioners alleges Cunningham &
Lindsey U. S. Inc. from Virginia Beach, played a
Major Part in plots against Petitioners under
Title 18, U.S.C. Section 242 while misusing
Good Standing Insurance Companies Abusing
their Adjuster Manual From FEMA. Appealed to
the Fourth District Court in pending case No: 191859. As Other Respondent used the same
Parental Alienation with “Said Veteran” used
against same Black Families by Abuses of Power
and Quite Terrorism that have the Power to
undermine any City, State, Government System
of Laws, Court Room, the Virginia Historical
Constitution, Act of Virginia General Assembly,
Act of U. S. Congress. As Respondents updated
their Terrorism Conspiracy to void all Petitioners
Presidential Executive Orders and Federal
Human Rights Laws with 3 different Court
Systems in Virginia. With Participants being
rewarded Higher Job Placements, Houses, Land,
Ready Made Businesses and Bad Faith allegedly
to get their Legal Fees paid for by Good
Insurance U. S. Companies.

J

8
Because of hate against a Black Republican done
with a smile against a Trusting Christian and
her Family. Females Respondents who worked
hard to control “Said Veteran” Attorneys of
Record: may have allegedly threatened their
Legal Careers.
Needing this U. S. Supreme
Court to Protect the Legal and Medical Field for
all forms of Terrorism that Voided U. S. Citizens
Federal Constitutional Rights and Safety.
Ending all Chained Conspiracy that misused
the Hampton Circuit Court that ended in a
Miscarriage of Justice for Petitioners in USSC
Case No: 06-931 for Retaliation to destroy
Petitioners and Children like a Chest Game.3
Showing Petitioner Joyce Beggs Research of
her own Great Grandfather footsteps on
Contraband Slave History was “Completely
Misunderstood” that caused Suffering of
Terrorism and Conspiracy that has continued for
over 20 years. Continued on July 20, 2016 with
3 Noting Petitioner Joyce Beggs had help of Democrats and
Republicans working together on Battered Woman
Legislation Research across the United States. Meeting
Staff from the Late Senator Jesse Helms Office “in shock
he was a nice caring person wanting to learn the Facts”
with a great Staff and Supporters caring for Petitioner
Joyce Beggs and her children. Placed in the Historical
State of Virginia for over 30 years ago in the Beautiful City
of Newport News. Who just wanting to he a Farmer; just
like her Great Grandfather who received his freedom from
Fort Monroe, as Children had goals of Homeowner ship, as
Counselors taught them to save their weekly Allowances
for years.

9
Large Pictures of Republicans Leaders and their
Wife’s would show the unacceptability of Black
Republicans being very dangerous for any Black
Families. As a Virginia Beach Social Worker
discriminated against Petitioner Joyce Beggs’ for
her Republican Pictures in her Office July 20,
2016, overlooking a Picture of Martha Luther King
in one room she walked in, talking on the Phone,
and camping out at the Petitioners Home; knowing
“Said Veteran” gave “Said Child” to the Petitioners
during a family emergency before driving off
without explanation. As if he was still thinking he
was under Attack July 20, 2016 from someone.
As the False Statements he kidnaped his own
child leaked to the Media as a plot to denied
Emergency Custody and Guardianship in Case No:
190102 Petitioner filed, but falsely showed
Respondent Beverly Story as Plaintiff, not
corrected by the Clerk Office. With Fraud on the
Court, Leading to a Jurisdictional Plea Deal of
Bad Faith with “Said Veteran” November 13, 2019
by his Own Attorneys of Record Afshin Farashahi
in No. CR17-001285: “Allegedly caused a casewithin-a-case” in these complex cases pulled to
joint or was over-powered. Citing Fiske v. Buder4
4 Citing Fiske v. Buder
“Turning to the question of the nature of the fraud
complained of as a ground for relief, it is the rule that
fraud is extrinsic or collateral within the meaning of the
rule when its effect is to prevent an unsuccessful party
from having a trial or from fully presenting his case, as,
for instance, when his attorney fraudulently connives at
his defeat or sells out his client's interest”.

10
Blinding the Eyes of Justice by voiding “Said
Veteran” Military Service and Serious Medical
Care, received from the Hampton Veteran
Hospitals as Mental Tricky Blocked any Rights
to an Appeal for Retaliation of Supreme Court
Case No: 06-931 Using Parental Alienation and
suffering Fraud on the Court with Cunningham
Lindsey U.S. Inc.
Needing this Court Discretion to Protect the
Newport News Federal Courts System from
being affected by Chain Conspiracy under 28
U.S. Code 2101 (E) against any Citizens,
Companies, Government, and the United State
Constitution and Acts of Congress in their
Jurisdiction, used by all Petitioners who are
Officers of the Court in these Complex Cases
used Unidentified Compacts Of Females. That
caused a conflict of Interest using A Newport
News Federal Judge in Court Case No: 4:17-cv00110 to also Blind the Eye of Justice by
Conspiracy with continued Quite Plots Terrorism
in Voiding Federal Constitutional Rights against
Petitioners.
Causing Petitioners that is
undecided as Petitioners complained to a Federal
Judge of the Cruel and Unusual Treatments that
“Said Veteran” received from his own Attorney of
Record. Same Fraud on the Courts Citing
Bulloch v. the United States, 763 F.2d 1115,
1121 (10th Cir. 1985)5
5 Court state37" upon tfie”court”is^faud which is directed
to the judicial machinery itself and is not fraud between
the parties or fraudulent documents, false statements or
perjury.

11
Petitioner Joyce Beggs Misunderstood
Research
The Petitioners Historical Home sits on
Shepard Mallory Farming Land who was the
first of 3 Contraband Slave at Fort Monroe.
Who farmed with Petitioner Joyce Beggs Great
Grandfather and an Ex-Slave Named Mr. James
Kirkpatrick who was truly his Master Builder
before receiving his Freedom. Who brought
Land from Shepard Mallory Historical Property
with the payment of a Muscadine Grapevines,
that is still growing on the property on Mallory’s
Property on 212 Downes Street in Hampton
completed after the Civil War by the Ex-Slave
James Kirkpatrick. Built beyond Building Codes
of today to last throughout the Generations.
Making the Land given to them and her Great
Grandfather from the ruins of the burn down
Chesapeake City at the Mouth of Fort Monroe
their legal properties before the Civil War that
ended on April 9, 1865. Could be one of many
Motives of suffering a misunderstanding of their
Family Tree History. Facing Terrorism for no
reason. Petitioners worked hard to listed their
home under Historical Places December 2006,
but somehow missing.
Suffering the same
Terror From Case 06-931 where the Petitioners
had to move their children to the State of
Kentucky to take Classes at the City of Hampton
Code and Compliance Department to study to
learn Construction and the Law with the help
University of Kentucky and Williams and Mary
Law Libraries to made repairs to their Historical

12
home. Rebuilt Kirkpatrick’s Grandchildren in
1961-1964: noting Late James Kirkpatrick also
helped the Late Mr. Harrison Phoebus; Rebuild
his Hotel at Fort Monroe. Along with the
Petitioner Joyce Beggs’ Great Grandfather.
Showing the Late Harrison Phoebus who gave
her Great Grandfather is First Paying Job with
so much Love in his Heart: “Did Not want
Phoebus to become a Little Chicago, where
Petitioners are treated as second class citizens.
Suffering from Terrorism and Conspiracy
under 42 USC 1983, after July 20 2016, as
Petitioners were forced to get Loans for Flood
Water Clean up from Hurricane Mathews, using
their own building skills and paying over
10,000.00 in Carpet, 20,000.00 to replace new
Heating Ducts, Electrical and Supplies to repair
sub-floors and water damage.
Unable to replace personal Items, Tillers,
Tractors, Tools, Gardening Equipment and
Personal Items
As Cunningham Lindsey U.S. Inc., from
Virginia Beach knew Petitioners Grow their own
Historical Food Supply and is the Frist Home
under floodwaters.
Even though their Home do not set directly on
the Water Front, but having a Clear View of Fort
Monroe a Custom of Contraband Slaves
Families. And the only home with all heating
and air condition ducts under their low laying
"homer watching in pure terror as other
Neighbors are fully covered.

13
Forced to Stop studying the Law, to Physically
Repairing their own Historical Home before
Visitation with “Said Child”. As Respondents
from Virginia Beach used factual information in
Petitioners Pleading and Motions to use in
Conspiracy Plots making Connections with the
City of Phoebus Section of Hampton from Virginia
Beach in Bad Faith taken advanced of Petitioners
Quiet Abilities to Repair their Home with their
own skills.
Knowing the Petitioners needed over 10,000.00
in Emergency Funds just to get started on Basic
Flood Cleanup to replace Duct System and under
their house and Carpet.
As Respondent Cunningham & Lindsey U. S.
Inc., Blocked Petitioners from any flood recovery
during Hurricane Mathew to cause financial
hardship offering them less than $4.00 forcing
Petitioners to Farm by Hand until slowly
replacing only 20 percent of their Gardening
Equipment while Fighting for Justice caring for
the medical treatment of “Said Child”.
As only Petitioners Neighbors are fully
covered under FEMA Program by their
Insurances Companies because of the Hatred for
a Black Republican, misusing the FEMA Federal
Program by voiding the needed statically
information to be reported of their Home under
Base Flood Elevation (BFE), to elevate their
Historical Home.

14
Knowing Petitioner Joyce Beggs Promised her
Black Community in Phoebus to care for the
Only Home Built by the Hands of a Contraband
Slave. Suffering Terrorism of their Historical
Home in USSC. Case No: 06-931 before moving
their children back to the Phoebus Section of
Hampton, Virginia faced continued unexplained
Terrorism Actions after receiving much Love
from the Citizens of the State of Kentucky.
Said financial hardship, voided them from
hiring any Attorneys for “Said Veteran”. Forced
them to use their personal skills of Constructions
for Flood Clean-up, taken away time for Legal
Studying during legal Deadlines to causing
continued Terrorism, as their farm “Angel Field
Farms” suffered from Computer Interferences
and Crushes of their Online Seeds Business
mysteriously deprived of online Visitors until
Legal Deadlines.
Showing Petitioners should
not have to suffer under a misunderstanding of
her Research. Have the power to void important
Black History and Properties from Contraband
Slaves, as History lost when the City of
Hampton incorporated the Town of Phoebus in
1952. 6
6 Petitioners land sits on parts of a Battalion, Said Butler
Give to Shepard Mallory. Showing Petitioner Joyce Beggs
has suffered Conspiracy Plots of Civil Terrorism,
researching her Great Grandfather who was among many
who receiving their Freedom during the Civil War under
President Abraham Lincoln Emancipation Proclamation
on January 1, 1861.

15
It was the Petitioner Joyce Beggs that learned
the forgotten history of her Family Tree of
Contraband Slaves. Learning that Republicans
Died for her Family Freedom across the United
States for the First time in her life.
Only knowing as a Child; she wanted to be a
Farmer like her Great Grandfather. Knowing
only he was helped by Cherokee Native
Americans from South and North Carolina to get
to his Freedom; Unnecessarily suffering
conspiracy used against their children by
Parental Alienation to collect privet information
of a Military Family to destroy them is a
Criminal Offence.
In Studying the Effects of Parental Alienation
by researchers; Jennifer Jill Harman, Edward
Kruk, Denise A Hines; Learning from them that
Parental Alienation is a deliberate attempt to
break a child-parent relationship.
With them feeling it should be classified as
child abuse.
Contraband Slaves suffered the
same types of abuses after the Civil War Ended
around Forth Monroe, to take their property
given to them Months before the Civil War
Ended as conspirators was compensated with
better jobs, illegal gifts, trips or free services for
helping in of segregation terrors.

16
With Petitioners feeling it should be a Federal
Crime used by Wheels of Conspirators in plots
from any Neighborhood, any Officers of the
Court, Military Base, or Correctional Facility to
Spit Black families using Invisible Tactics that
will continued to destroy Black Man of African
Americans by control American Citizens by
conspirators as a groups destroying Citizens who
have a different Political View or to take their
Historical Properties by Abuses of Power, or
Plots to take their Freedom as suffered by “Said
Veteran” Placing “Said Child” Illegally in Foster
Care while destroying the Petitioners.
The researchers on Parental Alienation
recommend a family systems response to
parental alienation, involving both victims and
perpetrator, with a view to restoring all
relationships to the child or children.
Whereas Petitioners needs this U S Supreme
to stop all Conspiracy under Title 18, U.S.C.,
Section 241 & 242 and all Parental Alienation
with that affected her children in U. S. Supreme
Court Case No: 06*931 in these Complex Cases
affecting the same infant child who is now a
Veteran of the United States; who Trusted his
neighbors in Phoebus. Voided of recovering of
Mentally and Physically Injuries from a War
Zone, suffering a Miscarriage of Justice as both
presently deprived of Proper Medical Care and
Stability. Petitioners cite cases; O’Sullivan v.
Boerckel, 526 U.S. 838, 845 (1999) and Jefferson
v. Gallagher, 56 Okla. 405, 150 P. 1071. Along
with Brown V. Vasquez 952 F .2n 1164, 1166
(9th Cir. 1992) Dovel v. Bertram, 184 Va. 19, 22,
34 S.E.2d 369, 370 (1945)

17
Whereas neither the Late Senator Jesse
Helms nor Petitioners should be hated as
Petitioner Joyce Beggs leaned her Great
Grandfather get to his freedom at Fort Monroe in
Virginia by the Late Major General Benjamin
Butler, lobbying for a Status in his Honor, just as
she lobbied for many different Female
Legislations with Democrats, Republicans, and
Independent Females, along with staff members
from many Law Makers among them over 30
years ago.
As Petitioner Joyce Beggs was Trusted with
the History of Contraband Slaves from the
Segregated Communities of the Phoebus Section
of Hampton Virginia in 1994 and learning their
Farming Secrets from Native Americans she
interviewed across the United States and could
not release undocumented information in buying
said Contraband Farmlands while looking for
her Great Grandfather. Citing Crute v. Crute, 12
Va. Cir. 190, 192 (Va. Cir. Ct.1988).
Whereas needing Special Review from this
United States Supreme Court of competent
Jurisdiction under Article III of the U. S.
Constitution to adjudicate Petitioners Case
190102 and the Federal Controversy over other
Complex Cases. At all times knowing “Said
Child” was given to the Petitioners by “Said
Veteran” during a family emergency before
driving off without explanation as if he was
still thinking he was under Attack on July 20,
2016 from someone.

18
Cases Complex History
Wherefore needing a Writ of Certiorari under
Rule 12.4 of this court discretion under 18 U.S.C.
241 for Conspiracy Ploys against Petitioners
Federal Rights to combined all cases for review
arising from the same transactions with Fraud of
the Courts overlooked by the Virginia Supreme
Court as plotters voided the true inferential facts
and Fraud on the Court by Respondent
Cunningham Lindsey U. S. Inc. on the U S
District Court in Newport News. Citing Bucy v.
Nevada Construction Co. (C.C.A.9th, 1942) 125
F. (2d) 213.
Needing revisal of all cases under Federal
Rule of Evidence Rule 60.(l)(2)(3)(b)(d)1.3 to set
aside fraudulently begotten judgment. Citing
Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 238, 245, 250 (1944).
As Said
Conspiracy against a Military Family Violate the
U. S. Patriot Act. Showing Acts of Terrorism is
dangerous to human life All Petitioners and their
families have suffered. Along with Voiding their
State and Federal Constitutional Rights, Civil
Right’s and misusing a FEMA Programs and
Good Standing Insurance Company to paid their
Attorney fees involved in their own Plots. The
same type of Fraud, Estoppel by Negligence and
Equitable Estoppel, Case No: 06-931. Citing
Bulloch v. the United States, 763 F.2d 1115,
1121 (10th Cir. 1985), Citing Dovel v. Bertram,
184 Va. 19, 22, 34 S.E.2d 369, 370 (1945),

19
Voiding Federal Law Passed by Congress July
20, 2016. With the Lower, Court denying
Petitioners Appointment of Guardian; as Officers
of the Court falsely stated to a New Virginia
Beach Circuit Court “on one accord” there were
missing pages in Petitioners Appointment of
Guardianship. As “Said Veteran” own Attorney
of Record ‘Attorney Asha S. Pandya “did not”
have her own Client “Said Veteran” Present to
Verify his Signature.
With Fraudulent Court Computers information
showing Beverly Story as the “Plaintiff’ with the
Powers to Bring Forth Fraud on the U. S.
Banking System for “Said Child” Estate Virginia
Beach Circuit Court File CL16004672-00, using
Systemizing Fraud on the Court as done on July
20, 2016. As Respondents Attorney Paulette D.
Franklin-Jenkins, Beverly Story, Cynthia King,
Attorney Asha S. Pandya with unknown parties
withholding Very Critical Federal Information
that “Said Veteran” was a Missing Patient at the
Hampton Veteran Hospital. With held from;
Petitioners, Virginia Beach Law Enforcement
Officers, Virginia Beach Child Protective
Agencies, FBI, Department of Defense, and
Virginia Beach Juvenile Court Judges. Creating
a Powerful Chain of Conspirators under U.S.C 18
section 241 and 242 that started when a Social
Worker Camped-out illegally at the Petitioners
home; to take Emergency Custody from
Petitioners July 20, 2016 under USC against a
Black Republican and her Family.

20
On the July 4th, 2016 Petitioners received a text
message picture from “Said Child Mother” of
“Said Veteran” Head-Cut-In-Half while on
Assignment at a Military Base in Hawaii Island.
After working with “Said Child’s Mother” for two
Months to control anger problems, by helping to
Retire her Mother “at James Beggs request for
her to stop yelling at their son and stating, as
she stated many times “do not let me drag you
out the room again while cooking dinner”.
Petitioners become concerned all over again
and worked hard to get back home to understand
said pictures.
On July 17, 2016, returning home from Hawaii
to meet “Said Child’s” Mother and “Said Veteran”
to understand Unusual Situation.
July 18 & 19 2016, only “Said Veteran” come
over to visit without their “Said Child” Mother”.
“Said Veteran told Petitioners “he attended their
Methodist Church in the Historical Town of
Phoebus section of Hampton Virginia and was
very happy and surprised; and “did not” show
Said Veteran said Pictures.
July 20, 2016 “Said Veteran” come to Petitioners
Home, given them Said Child “Emergency
Custody” due to a family emergency, as
Petitioner James Beggs ran out to learn about
his family emergency and was told “Dad Protect
Said Child”. Citing Scheuer v. Rhodes, 416 U.S.
232, 94 S. Ct. 1683, 1687 (1974)

21
July 20, 2016 Petitioners receiving strange
phone “calls” while caring for, "said infant" and
her choking problems, unaware of any tragedies
of a missing son. Said Stanger caller heard said
infant cry over the phone and called back.
The Petitioners gave Virginia Beach Police
Department all Video footage on their Security
Cameras inside and outside of their home, to
prove all factual Statements on July 20, 2016,
along with a Virginia Beach Social Worked their
Security Cameras as well.
Still, their
Emergency Custody given by Natural Father
were taken away by a Virginia Beach Social
Worker at the close of Business Hours after
receiving a call take “Said Child” from
Petitioners placing said Infant at her Privet
Home July 20, 2016.
Before placing her in
Foster Care on July 21, 2016, as she 3 Loving
Grandparents. Said Petitioners were unable to
stop equitable estoppel actions being deprived of
meeting the Maternal Grandmother for the first
time, and stopped from looking for “Said
Veteran” July 20, 2016.
July 20, 2016 “Said Child” suffered mental
injuries by false statements, “that placed “Said
Child”, an Infant Said in Foster Care at the
close of the Business days in Virginia Beach
Court System, without Hearing any Testimony
or evidence from Petitioners. Researching
“Said Child Medical Records” explains her
choking problems that made long-distance

22
traveling from Hampton under Tunnel Bridge to
Virginia Beach and Norfolk very unnecessarily
dangerous with many emergencies stops to
control choking. Showed said infant stuffed from
Severe a. Gastroesophageal, b. Reflux Disease,
c. Torticollis being treated with Helmet
Not given to any Judge in the
Therapy.
Virginia Beach Court System true Serious
Medical Report hidden by false Media Reports of
“Said Child” As said Abuses of Power falsely
leaked false information to the Media untrue
facts of “a Mother Being Shot” caused an infant
to be placed Falsely in Forster Care.
Petitioners cited Virginia State Laws of Code
16.1-281; 63.2-900.17 in their Motion in Virginia
Beach. March 23, 2017, Respondent Attorney
Paulette D. Franklin Jenkins directed her
Client “a Senior Citizen” to violate a Judge
Court Order. Suffering Deprivation of their
Virginia and United States Constitution Due
Process.
7 16.1-281; 63.2-900.1 order transferring custody of child
to a relative other than the child’s prior family shall be
entered only upon a finding, based upon a preponderance
of the evidence, that the relative is one who, after an
investigation as directed by the court: Is found by the
court to be willing and qualified to receive and care for
the child • Is willing to have a positive, continuous
relationship with the child • Is committed to providing a
permanent, suitable home for the child • Is willing and
has the ability to protect the child from abuse and
neglect. Over looked by the Virginia Supreme Court

23
Getting a Copy of Said Court Order March 27,
2017, only giving them Joint Legal Custody only
Visitation 1st and 3rd of each month of 4 days
only. Continued Violations of Due Process Laws,
using Officer of the Court Respondent Asha S.
Pandya and Friendship in the Local Court
System of misfeasance fraudulent behavior
against “Said Veteran”, paying all Officers of the
Court From Said Child Estate.
Petitioners filed Post-Trial Motions mostly
unseen by Lower Court Judges in Virginia Beach
Court System. Deprived of Federal Due Process
and Jurisdiction that voided a Natural Father’s
Right; who is a U.S. Veteran to places “Said
Child” in the Care of his Parents Citing William
vs. Williams, 24, Va. App.778 783,435, S.E. 2nd
651, 654, 413, (1997).
Along with Conspiracy of Attorney Paulette
D. Jenkins Franklin who used Petitioners
concerns for said Grandchild health problems to
damage her Reputation, a. At all times aware of
“Said Infant Child true medical problems, not
receiving continued Helmet Therapy after July
20, 2016” to strengthen the muscle in her neck
and reshape said infant’s head using medical
estoppel actions with “no concerns to advise her
Client “a Senior Citizen” Respondent Beverly
Story of said Child Medical Treatments, b. Only
caring to took Due Process from Petitioners as
they used their own money to heal “Said Child”
from choking problems August 5, 2017, by

24
Medications and New Feeding Diet by Emergency
Doctors, with no financial help to pay her Medical
Bills or Medications taken for their saving.
Unable to place “Said Child” on their
Military Insurance, nor claim her as a dependent
on their yearly taxes, c. As Officer of the Court
enjoyed said Child Estates to paid their Legal
Expenses; causing them to file a Writ of
Mandamus which states: Attorney Paulette D.
Franklin Jenkins made the Petitioners feel bad
for trying to Adopt Lauryn Beggs and her Client
Beverly Story.
Said Officers of the Court used misdescription
of Petitioners visitation schedule and during
Petitioner James Beggs Military Assignments
schedule ending November 13, 2019, without the
Present of “Said Veteran” by his own Attorneys
of Record.
As Petitioners Interlocutory Appeal denied
August 5, 2016, in the Virginia Beach Circuit
Court after the ruling of the Virginia Beach
Juvenile and Domestic Court giving Temporary
Custody to Respondent Beverly Story with only
Sunday visitation to them, causing them to drive
under the Hampton tunnel bridge from Hampton
to Norfolk 4 time every Sunday for only 6-hour of
visitation is Cruel and Unusual Punishment.
Said Officers of the Court continued Esttopel
Actions and Fraud on the. Courts followed by
plots to Obstruct of Justice, ending in a
miscarriage of Justice

25
Without State or Federal Constitutional
Protection March 23, 2017, of the Lower Court
Signing of the Custody and Visitation Order.
With all Respondents knowing Virginia Beach
Police Officers found child safe with Petitioners.
Noting that Virginia Beach Policeman was not
offended by Respondent Republican Pictures in
their home: “just the safety of Said Child”; Citing
Visikides V, Derr. 3 VA App 69 (1986 ), while
viewing their’ Home Security Video Tapes inside
and outside of their home July 20, 2016, who
Learned “Said Veteran” gave “Said Child” to the
Petitioners asking them to Protect “Said Child”.
With only the Respondent Beverly Story and her
First Attorney of Record allegedly had knowledge
“Said Veteran” was receiving Mental Health
Care from the Hampton Veteran Hospital. Along
with Voided Federal Evidence found at the
scheme July 20, 2016. Petitioners did not know
their son was Injured Mentally and Physically in
Afghanistan on July 20, 2016.
As all Respondents knew Petitioner Joyce
Beggs suffered from Dyslexia and used Civil
Terrorism to distract her during legal
deadlines, letting said child suffered medical
neglect by a Senior Citizen to control Said
Child Estate and treating “Said Veteran” guilty
before any trial. Voiding his Parental Rights”.
Stating to “Said Veteran” that his Parents will
testify against him.

26
With Petitioners stating to Virginia Beach
Prosecutor, they would Plea The Fifth
Amendment and would not testify against their
child because he was attacked. Citing Keel v.
Keel, 225, Va., 606, 611, 303 S.E.2d 917,921
(1983).
Moving this Court to Return “Said Child” to the
Petitioners. Showing the danger of unfair
prejudice of Due Process violations, Jurisdictional
Violations, with ongoing Fraud on the Court.
Citing Bulloch v. the United States, 763 F.2d
1115, 1121 (10th Cir. 1985).8
Showing great disrespect for the wishes of a
Great Virginian: Honorable George Mason, who
wanted to protects our democracy by applying a
Fair Trial to both civil and criminal cases that
Who
cannot be limited in any circumstances,
also wanted everyone; even Pro’se Litigants to
have fairness in all Court Cases.
Cruel and Unusual Treatment of “Said Child”,
was used to supply a “Go Fund Me” type of
fundraisers to Control “Said Child” Estate”.
8 It is where the court or a member is corrupted or
influenced or influence is attempted or where the judge has
not performed his judicial function — thus where the
impartial functions of the court have been directly
corrupted." And citing Hustler Magazine, Inc. v. Falwell,
485 U.S. 46 (1988) 7_Moore’s FederalPractice, 2ci ed., p.
512, 60.23, Keel v. Keel, 225 Va. 606,611,303 S.E.2d
917,921(1983) Kenner v. C.I.R., 387 F.3d 689 (1968)

27
Petitioner Joyce Beggs 9 believed “The Late Lysa
Story was trapped in a box”
Reason for Granting
Petitioners Writ of Certiorari
The Abuses under the Six Amendment of
the U. S. Constitution caused all Petitioners
irreparable harm in all case and using Parental
Alienations, by telling ‘Said Veteran”; the work
Petitioner Joyce Beggs with the Late John
McCain and Virginia Senator Mark Warner
was not a good Ideal, blocking from attending
Motions Hearing and Plea Deal.
9 Said Events July 20, 2016, left the Petitioners “Black
Balled” with Media Coverage, as they were the true
victims. With someone falsely leaking to the Media “Child
Mother was shot”, setting plots in motion to illegally
placed “Said Child in the Privet home of a Virginia Beach
Social Worker; who Blocked Petitioners from looking for
their Missing Son or calhng their City of Hampton for
Help. Knowing “Said Child” was placed in the Jurisdiction
of the City of Hampton Virginia on July 20, 2016. With
Virginia Beach Police Officer leaving said child safe with
Petitioners. Taken Infant at the end of the Business Day.
As the Media, Petitioners, nor Judges in the Virginia
Beach Court Systems had any knowledge “Said Veteran”
was a missing patient receiving Medical Treatment from
the Hampton Veteran Hospital for Physical and Mental
Embracing Injuries from a War Zone in Afghanistan:
Petitioners discovered with their Military Power of
Attorney. Given to his Attorney of “Record Respondent
Attorney Afshin Farashahi” knowing his client reported to
Medical Doctors for needed help almost injuring his family
while napping before 7/20/2016. Never Seen by any Judge.

28
Falsely showing Respondent Beverly Story as
Plaintiff in front of Judges without calling
Petitioners for available dates. When In Fact
President Trump signed the Congress Supported
Bill, called The Improved Veteran Care Giver
Act into Law to help Caregivers of Veterans who
are not Married in Recovering from War Zones;
that would have helped the “Late Lysa Story”
with needed Support; to better our society as
they were not married and “Could Not” attend
canceling together on Base nor Veteran
Hospitals.
Whereas; Only this Honorable Court can stop
said Terroristic Conspiracy and Parental
Alienation causing Mental Suffering on children
or any Patient Recovering from Mental Injuries,
or using children as a Spying Tool to Conspire
plots of Conspiracy used against Petitioners in
games of Malicious Abuses of Power. Whereas,
showing all Respondents with said Veteran’s
Attorneys of Record in a Plea Deal in Bad Faith
under 18 U. S. Code § 371 commit offense under
the U. S. Constitution and Acts of Congress on
November 13, 2016. Allegedly working together
to keep true facts from a Virginia Beach Judges
and All Judges in the State of Virginia up to the
Virginia Supreme Court. That Voided President
Obama Executive10
10 Quotes from President Obama “Nation's veterans and
military service members;" these challenges are“
compounded by the invisible wounds of war. Tragically,
these crises can sometimes involve thoughts of suicide -and we must do more to support those suffering”.

29
of a Missing Patient of the Hampton Veteran
Hospital. Serves as Proof said Respondent
Female Attorneys of Record allegedly helped to
build and control Profits from the Public Interest
to raise money as a plot, being paid from “Said
Child” Estate”. To Mislead a New Judge of the
Virginia Circuit Court in case 90101; overlooked
by the Virginia Supreme Court.
Whereas having full Juridical Jurisdiction
over said “Said Veteran” case to identify how
many Attorneys of Record had knowledge “Said
Veteran” was a Missing Patient and the levels of
involvement of voiding the needed assistance of
the Department of Defense and the FBI, Veteran
Affairs July 20, 2016, that took away Federal
Jurisdiction.
Voiding out guidelines of Presidential
Executive Orders and Proclamations for “Said
Child” and “Said Veteran” with both suffering
from serious medical problems July 20, 2016 to
February 18, 2020, unnecessarily as said
Veteran Left the University of Kentucky after
911 to fight under the First Black President of
the United States.
With said information overlooked by the
Virginia Supreme Court. As “Said Veteran” is in
serious need of medical care while missing and
Pleading for Medical Care 2016-2019 from the
Virginia Beach Jail as no City employee had
facts or knowledge “Said Veteran” suffers True
Medical Conditions in the Virginia Beach Jail, as
Respondents Plotted Conspiracy that voided
Federal Jurisdiction.

30
As All Respondents learned in the Virginia
Beach Circuit Court Petitioners received pictures
from the Late Lysa Story with their son “Said
Veteran” head cut in half July 4th, 201611 as
they worked hard to return home from Hawaii to
help said Couple. Not knowing said Couple had
a “Sick Baby” and dealing with Serious War
Injuries” who sacrificing his Good Health while
Fighting in Afghanistan for our Great Country
after 911 as the Petitioners tried to clarify in
Motions and all Courts.
Whereas Federal information of a Missing
Veteran receiving Mental Health Care from the
Veteran Administration was not giving to
Petitioners, Virginia Beach Police Department,
FBI, or the Department of Defense nor Reported
to the Veteran Affairs. Therefore voiding out the
Late
Senator
John
McCain;
Veterans
Community Care and Access Act and Voiding
President Obama Executive Orders with Officers
of the Court in violation under the Sixth
Amendment of the United States Constitution;
plotting an Illegal Chest Games of Horror with
the Lives of all Petitioners.
11 “Noting 4th of July is the Birthday of our Great
Country. It also serves as the day Senator Jesse Helm
Died”. Joyce Beggs did not meant to offend anyone with
her pictures of the Late Senator Jesse Helms, and other
Republicans Leaders as the North Carolina Natives
Americans Helped her Grant-Grandfather get to •Forth
Monroe for his freedom.

31
Officers of the Court gainfully employed;
used their Professional Jobs to team- up in Chin
Conspiracy against a Black Republican and her
family.
As Respondent Beverly Story’s First Attorney
knew from the true evidence; the Late Lysa
Story was trying to “Evict” a sick Veteran” from
her home. Allegedly while he was sleeping under
medication for PTSD to “stop fighting the war
out in his sleep” returning home from an
overnight stay on or around 5:00 am July 20,
2016.
As Late Lysa Story could not tell Petitioners of
“Said Veteran” Medical Conditions because of
Medical Laws surrounding her Profession Job. 12
12 Petitioners trusted her; gave her money to help retired
her Mother, to stop Yelling at their son. With Petitioners
Founding out on November 13, 2019, she did use the
money to Retired her Mother.

32
Whereas Petitioners seek a Writ of Certiorari
to address all Federal a Sham Defense that
Violated Presidential Executive Orders.
As Chain Conspiracy and Fraud can
undermine American Legal System Moving this
Honorable Court to void all Orders of Judgments
against Said Veteran and Petitioners from all
Complex Case in Petitioners Jurisdiction
needing this Court to ending all Secret
Conspiracy of Terror against Black Republicans,
Mixed Race Couples and their Family Members.
Citing Loving v. Virginia, 388 U.S. 1 (1967),
along with protections of Black Professionals,
Military Family, Men, or any Virginia Families
that share a different political viewpoint.
To Protection all Veterans and Military
Personnel in Petitioners Heavily Military
Jurisdiction from being used or abused by Quite
Terrorism against any American Citizens, for
just being nicely different and independent
thinkers who wants to uphold the Federal and
State
constitutional
guidelines
of their
Profession.
Upholding President Abraham Lincoln
Proclamation stating:
“To Care For Him Who Shall Have Borne The
Battle And For His Widow and His Orphan”.
“Noting that President Abraham Lincoln also
suffered from Dyslexia as the Petitioners Joyce
Beggs”

33
Whereas Petitioners seek a Writ of Certiorari
to address all Federal Constitutional Cited under
18 U.S.C. 241 and section 242 to overturn all
Orders of Judgments against all Petitioners
for Fraud on the Court for the Flowing:
a. Returning “Said Child” back to the
Petitioners and, “Said Veteran” back to the
Hampton Veteran Hospital for Continued Care
under Federal Guidelines of said Veteran Bills
and Presidential Executive Orders.
b. Over Ruling the Virginia Supreme Court
Ruling in said case 190102 and all Orders;
Granting Their Legal Guardianship and Custody
and Giving Petitioners their needed Emergency
Custody.
c. Over Turning Newport News Federal
District Court No: 4:17-cv-00110. Holding only
Respondent Cunningham Lindsey U. S. Inc. et al
Responsible for Fraud on the Court and
Conspiracy, Terrorism, Breach of Contract Laws,
Misusing a Federal Programs to cause
“Irreparable Harm” to the Petitioners. 13.
13 Said Mental Strategies using plots of Parental
Alienation destroyed many Contraband Slaves Families by
Assigned Neighbors to spit the family United to take their
Properties, compensated with better jobs, illegal gifts, trips
or free services for helping in Plots of segregation terrors.
Having the power to void important Black History and
Properties of Contraband Slaves, with the History lost
when the City of Hampton incorporated the Town of
Phoebus in 1952.

34
Being an Aid to Petitioners Jurisdiction by
Stopping any learned behaviors that Black
Citizens, Black Veterans or Black Republicans,
Mixed Couples, or any American Citizen be quietly
treated as second-class citizens by actions under
18 U.S. Code 241 and section 242., used by
Conspiracy under the Six Amendment by Abuses
of Power that will take away Public Trust.
Granting this Writ will bring about a true
understanding that Black Americans, and Natives
American Life’s Matters.
Especially Poor
Americans, Senior Citizens and Citizens under the
Americans Disability Act; like Petitioner Joyce
Beggs Dyslexia.
Citing the CompanionateHearted Legal Scholar from the Ninth District
Court Judge David R. Thompson in Brown V.
Vasquez 952 F ,2n 1164, 1166 (9th Cir. 1992)14.
14 Compounding this burden, the petitioner is often
illiterate or poorly educated and yet must decipher a
complex maze of jurisprudence in order to determine which
of his constitutional rights, if any, may have been violated.
Such a task is "difficult even for a trained lawyer to
master," and, understandably, is often beyond the abilities
of most prisoners.

35
Prospecting Acts of Congress and Presidential
Executive Orders must also be learned from
History.
To protect all Rights of “We The
People”, by Not Repeating Bad Faith Actions of
Human Rights Violations in our History as done
to Petitioner Joyce Beggs, a Black Republican
and her Family! By Stopping any learned
behaviors that Black Citizens, Black Veterans or
Black Republicans, Mixed Couples, or any
American Citizen be treated as Second-class
citizens who suffered actions under 18 U.S. Code
241 and section 242 like the all Petitioners.
Getting Respondents to Learn that Federal
Laws and Programs Require the needed
Statistical Analysis that must be reported to
many different Federal Departments as required
in the Federal Language of: Federal Laws,
Federal Programs, Acts of Congress, Presidential
Executive Orders. Showing Black Republicans
and Black Professionals needs protected under
the U. S. Domestic Terrorism Act and the
Patriotic Act of plots of conspiracy suffered by
Petitioners: that have the Powers to end hopes of
“We The People” and their Dreams of Equality,
especially Americans under the Disability Act or
any Senior Citizens, Veterans suffering Mental
and Physical Injuries from War Zones; that are
clearly stated by Presidential Executive Orders
and Acts of Congress. Especially, as Black
Republicans like Joyce Beggs is not mostly
accepted in Petitioners Jurisdiction forced to
remove her Pictures to help stop Discrimination
Chain Conspiracy Terrorism against her family
from suffered in Case 06-931.

36
Granting this Writs of Certiorari will be an Aid
to Petitioners Jurisdiction to stop all Conflicts of
Interest by Appointed Attorneys; Freeing them to
properly server only their Clients Interest with
out fear to; a. Have their Clients present at all
Motions and Trials, b. Stopped abuses of their
own Clients U. S. Constitutional Rights by
Avoiding Conflict of Interest to “Erasing any
Veteran Military Sacrifice to the United States of
America; “Like Said Veteran” who gave up his
studies from the University of Kentucky wanting
to fight under the First Black President of the
United States surrounded with American Love
from the Late Senator John McCain.
Needing to Educate New Soft Powers that
many Senators and Lawmakers had concerns
about; by avoiding out any Abuses Power of
Unregistered Compact Groups of Females that
void-out Federal Constitutional Rights, Acts of
Congress against Citizens they Hate. Teachingu
Respondents: that Female Republicans, Female
Democrats, and Female Independents, helped
with Female Legislations for many Acts of
Congress.
15 All Americans must learn that any act of Physically
Evicting a Sick Patient by dragging is an Act of Violence.
Showing “Said Veteran” was being Physically Evicted from
his Home in Virginia Beach by the Late Lysa Story who was
over 6 feet and over 250:00 pounds. -Who pulled “saidVeteran” suffering from Severe PTDS. Who was under
Medical Care for Fighting the War out in his Sleep.

37
Showing Respondents Conspired together by
voiding out Federal Jurisdiction of a U. S.
Veteran Medical Treatment at the VA with
Medically neglect “suffering the same injustice
as he was an infant in Case No: 06-931” that
voided out his Continued Medical Treatment
with Cunningham & Lindsey U. S. Inc., casing
the Petitioner Financial Suffering tuning down
Petitioners Proof of Lose with Fraud on the
Courts, Misusing Insurance Companies to pay
their Legal Fees pending in the 4th Circuit
Court. Citing Brown v. Nevada Construction Co.
(C.C.A.9th, 1942) 125 F.(2d) 213.
If said Chain Conspiracy type of Terrorism is
not addressed it will take the place under second
Amendment as Quite Terror Attacks to hurt or
Kill Americans Citizens by unknown Compacts
Groups of Professionals like Petitioner Joyce
Beggs for being a Black Republican destroying
her Family.
Putting Forth Ghost Writing
Conspiracy causing Conflict of Interests, taken
away Due Process by Fraud on the Courts to
Terrorize Citizens like the Petitioners. That’s
void out Federal Protections like an invisible
handgun using the Medical and Legal Field, and
any American Citizens of Due Process with
Abuses of Power. As only this U. S. Supreme
Court can address Past Actions of Attorneys of
Record under Supreme Court Rule 10. Especial
Officers who no longer interested in said cases.
As said legally Signed Guardianship Documents
were placed into

38
evidence in Virginia Beach Juvenile and
Domestic Court No: CJ17-63 in 2016 “with copies
given to all Female Attorneys, along with Lauryn
Beggs First Female Attorney of Record Guardian
Ad Litem Cynthia King. That placed “Said
Child” In Foster Care as a plot to give her to
Respondent Beverly Story by Abuses of Power
who lives in the City of Chesapeake Virginia
with the Petitioners Living in Hampton, Virginia
Petitioners Emergency Relief Needed
Wherefore returning Emergency Custody
Immediately and Guardianship back to the
Petitioners to school “Said Child” at the Catholic
School/Christian School in Hampton Virginia.
Placing her Estate to be managed by Catholic
Church, with Petitioners until the age of 18 that
would help Respondent Beverly Story attend
school functioning and School Activities, Pray
Counseling and Visitation.
Wherefore Overturning all Orders for Fraud
on the Court from the Virginia Beach Court
System in all Cases and Voiding said Plea Deal
in Bad Faith by releasing said Veteran from
False Charges of Murder, who acted in selfdefense, unable to Mentally Relate to the
Physical Dragging while being Physically
Evicted July 20, 2016.
Wherefore Returning “Said Veteran” Back to
the Veteran Administration Hospital; Ordering
Said Veteran Attorneys of Record Respondent
Attorney Afshin Farashahi to volunteer his Legal

39
Services to help Process Said Veteran from the
Virginia Circuit Court Jail. Protecting him from
any Conflict of Interest or Control from any
Party or from Virginia Beach City Attorney
Christiana R. Dougherty-Cunningham or Any
Person or Agency in an Independent Approach to
arrange Visitations to introduce “Said Veteran”
to “Said Child” who only know her father by
Pictures as a Guardian Angel Order to Pay all
Filing Fees, Court Cost to relocating “Said
Veteran Car” and Personal Belonging and
helping to Relocate “Said Child Estate” with his
Client and Respondent Beverly Story as
Custodians in the Petitioners Names to the
Historical town Hampton Virginia with the Help
of Respondent Beverly Story Attorney Lori A.
Butts.
Whereas Adding “In Memories of the Late
Lysa Story” under Senator Mark Warner and
Late Senator John McCain “Improved Veteran
Care Givers Acts”, that was Singed into Law by
President Trump. To protect all Caregivers who
care for Wounded Veterans; who are Warriors of
the United States of America. Especially for
unmarried Couple who care for Veterans that
allowing Doctors and Medical Staff to meet
together in Local Medical Location in their
communities to help the Family United who are
unmarried.
Whereas Respondent Cunningham Lindsey U.
S. Inc. a Virginia Beach Flood Adjuster created a
Conflict of Interest using the Federal Judge
Arenda L. Wright Allen and their Legal Partners
of Good Standing Insurance Companies. Under
U S C 42 section 1983 Citing Dovel v. Bertram,
184 Va. 19, 22, 34 S.E.2d 369, 370 (1945)

__

40
Using Terrorism, Breach of Contract in Bad Faith
with Petitioners, by turning down their Proof of
Loss of Hurricane Mathews, wanting to sign their
Fraudulent Proof of Loss to hurt Petitioners and
their Property Value; to cause financially
suffering that offering them less than $4.00 for
their Flood Clean-up by Network with
Respondents, attempting to network with
Petitioners Church Members and Neighbors while
misusing the FEMA Program with the same
Conspiracy in U. S. Supreme Court Case No: 06931.
Forcing the Petitioners to ask for protects over
their Church Members and Family at the
Hampton Police Station at Fort Monroe.
Showing Respondent Cunningham Lindsey U. S.
Inc., is a Major Player in alleged Chain
Conspiracy under 18 U.S.C. 241 and section 242
in case No: 4:17-cv-00110. Needing Financial
Relief for the following: Breach of Contract Order
of 52,000.00, Petitioners Legal Cost for Papers,
Mailing Fee, Legal Books, Judgment Order of
$7,000.00,
Bad
Faith
Judgment
Order
$100,000.00, With Punitive Damages $4.00 to
1,000,000.00. With No Recovery of Lifting
Petitioners home at 3 feet. With New Federal
Regulations stating Petitioners Home needs to be
elevated to 8 feet. Needing over 700,000.00.
Therefor Removing all Good Standing
Insurance Companies from all Actions in case No:
4:17-cv-00110. Pending in the

41
U.S. Fourth District Court No: 19-1859: Appellee
American Banker Insurance Company d/d/a
Assurant and Appellee Geico Insurance Agency
Ordering Cunningham and Lindsey U S Inc.
responsible for Petitioners Financial Suffering.
Wherefore Granting Petitioners Writ of
Certiorari under U. S, Supreme Court Rule 12.4
reviewing Extraordinary Violations of Federal
Laws, that deprived a U. S. Veteran of receiving
Mentally Health Care, Fast and Speedy Trial
Put forth by Virginia George Mason. Depriving
all Petitioners of their Federal Constitutional
Rights as said Veteran suffers no Medical
Treatment at the Virginia Beach Correctional
Facility, for PTDS and voided from any Appeal
Process. As Petitioners suffered, Terrorism with
Respondents Fraud on the Courts.
Needing revisal of all cases under Federal Rule
of Evidence Rule 60.(l)(2)(3)(b)(d)1.3 to set aside
fraudulently begotten judgment to restore all
Petitioners to the position they would have
enjoyed in the absence of Fraud of the Courts.
Citing Hazel-Atlas Glass Co. v. Hartford-Empire
Co., 322 U.S. 238, 245, 250 (1944)
Conclusion
Therefore Petition Writ of Certiorari should be
granted.
Respectfully
Pro’se Petitioner James Beggs /Signature
Pro’se Petitioner Joyce Beggs/Signature
312 South Willard Ave
Hampton, Virginia 23663
757 265 7784

